r

s,

Monday, July 13, 2020
Walter Reinhaus, Appellant
24 West McMicken Av
Cincinnati OH 45202
513.241.3855

DECLARATION OF SERVICE
I certify that three copies of this Writ were sent by ordinary U.S. mail to counsel for
appellee, Paula Boggs Muething, City Solicitor and Kevin M. Tidd, Assistant City
Solicitor, 801 Plum Street, City Hall, Rm 214, Cincinnati OH 45202 on Monday,
July 13, 2020.
I certify that three copies of this Writ were sent by ordinary U.S. mail to Office of
the Clerk, Supreme Court of Ohio, 65 South Front Street, 8th Floor, Columbus OH
43215 on Monday, July 13, 2020.
I certify that three copies of this Writ were sent by ordinary U.S. mail to Clerk of
the Court of Appeals, First Appellate District of Ohio, Hamilton County, Ohio, 230
East Ninth Street, 12th Floor, Cincinnati OH 45202 on Monday, July 13, 2020.

I declare under penalty of perjury that the foregoing is true and correct. Executed
on Monday, July 13, 2020.
Respectfully yours,
Walter Reinhaus

RECEIVED
JUL 2 0 2020

